No. _________
IN THE

SUPREME COURT OF THE UNITED STATES
___________________________________________________
GERSON SERRANO-RAMIREZ,
Petitioner
vs.
UNITED STATES OF AMERICA,
Respondent
___________________________________________________

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
___________________________________________________
APPENDIX
United States v. Serrano-Ramirez, ____ F. 3d _____ (6th Cir. 2020)
(opinion affirming district court judgment)
United States v. Serrano-Ramirez, No. 3:17-cr-00164-1 (M.D. Tennessee May 20, 2019)
___________________________________________________

Manuel B. Russ
340 21st Avenue North
Nashville, Tennessee 37203
(615) 329-1919

I

QUESTIONS PRESENTED

Mr. Gerson Serrano-Ramirez was tried and convicted on
in the United States District Court for the Middle District of Tennessee.
Prior to and during trial, the District Court made various erroneous
rulings that prevented Mr. Serrano-Ramirez from receiving a fair trial to
which he is entitled.
I.

THE DISTRICT COURT ERRED WHEN IT DENIED MR.
SERRANO-RAMIREZ’S MOTION TO SEVER OFFENSES

II.

THE DISTRICT COURT ERRED WHEN IT IMPROPERLY
PERMITTED THE GOVERNMENT TO SOLICT EVIDENCE
IN CONTRAVENTION OF FEDERAL RULE OF EVIDENCE
404(b)

III.

THE DISTRICT COURT ERRED WHEN IT FAILED TO
PROHIBIT THE GOVERNMENT FROM REFERENCING
MR.
SERRANO-RAMIREZ’S
ALLEGED
GANG
AFFLIATION

IV.

THERE IS INSUFFICIENT EVIDENCE TO SUPPORT MR.
SERRANO-RAMIREZ’S CONVICTION IN COUNT FIVE OF
THE SUPERSEDING INDICTMENT AS THERE WAS NO
PROOF THE WEAPON WAS AN AUTHENTIC FIREARM

V.

THERE IS INSUFFICIENT EVIDENCE TO SUPPORT MR.
SERRANO-RAMIREZ’S CONVICTION IN COUNT EIGHT
OF THE SUPERSEDING INDICTMENT AS THERE WAS
INSUFFICIENT EVIDENCE HE WAS MAINTAINING A
PREMISES FOR THE PURPOSE DISTRIBUTING
CONTROLLED SUBSTANCES

VI.

THERE IS INSUFFICIENT EVIDENCE TO SUPPORT MR.
SERRANO-RAMIREZ’S CONVICTION IN COUNTS FOUR
AND SIX AS THERE WAS INSUFFICIENT PROOF
PRESENTED TO ESTABLISH THAT MR. SERRANOi

RAMIREZ WAS IN POSSESSION OF A CONTROLLED
SUBSTANCE

ii

TABLE OF AUTHORITIES
CASES

PAGE
Huddleston v. United States, 485 U.S. 681, 108 S.Ct. 1496, (1988)…………….........21

Ross v. Duggan, 402 F.3d 575, (6th Cir.2004)…………………………………...............15
United States v. Amaya–Manzanares, 377 F.3d 39, (1st Cir.2004)……………………22
United States v. Anderson, 333 Fed.Appx. 17, (6th Cir.2009)…………………………26
United States v. Bell, 516 F.3d 432, 442 (6th Cir. 2008)……………………………….21
United States v. Beverly, 369 F.3d 516, (6th Cir. 2004)……………………….……….17
United States v. Caver, 470 F.3d 220, (6th Cir. 2006)………………………………….17
United States v. Clay, 667 F.3d 689, (6th Cir.2012)……………………….…….….15, 21
United States v. De Oleo, 697 F.3d 338, (6th Cir.2012)………………………..21, 23, 25
United States v. Driver, 535 F.3d 424, (6th Cir. 2008)……………………………..16, 20
United States v. Gibbs, 182 F.3d 408, (6th Cir. 1999)………………………...........26-27
United States v. Hardy, 643 F.3d 143, (6th Cir.2011)………………………..........22, 25
United States v. Hatcher, 680 F.2d 438, (6th Cir.1982)……………………………16, 19
United States v. Haywood, 280 F.3d 715, (6th Cir.2002)…………………..………20, 23
United States v. Jenkins, 345 F.3d 928, (6th Cir.2003)……………………...…………21
United States v. Johnson, 27 F.3d 1186, (6th Cir.1994)………………..………………22
United States v. Lancaster, 968 F.2d 1250, (D.C.Cir. 1992)……………………………30
United States v. Martinez, No.06-4407*6 (6th Cir. 2011)……………………………...17
United States v. Merriweather, 78 F.3d 1070, (6th Cir.1996)……………………..23-24
United States v. Morrow, 977 F.2d 222, (6th Cir. 1992)……………………................15
United States v. Newsom, 452 F.3d 593, (6th Cir.2006)………………………………..26
iii

United States v. Old Chief, 519 U.S. 172, 117 S.Ct. 644 (1997)……………………….22
United States v. Rayborn, 495 F. 3d 328, (6th Cir.2007)……………………………….21
United States v. Ring, 513 F.2d 1001 (6th Cir.1975)……………………….…………..24
United States v. Russell, 595 S.W.3d 633, (6th Cir.2010)………………..........18, 30-31
United States v. Saadey, 393 F.3d 669, (6th Cir. 2005)………………………………...16
United States v. Williams, 158 Fed.Appx. 651, (6th Cir.2005)…………………….26-27
Zafiro v. United States, 506 U.S. 534, 113 S.Ct. 933, (1993)………………………17, 20
STATUTES
United States Code 18 § 841…………………………………………………….............1, 32
United States Code 18 § 921…………………………………………………………….27-29
United States Code 18 § 924…………………………………………......................1, 28-29
United States Code 21 § 856…………………………………………................1, 18-19, 30
OTHER AUTHORITIES
Abraham P. Ordover, Balancing the Presumptions of Guilt and Innocence: Rules
404(b), 608(b) and 609(a), 38 Emory L.J. 135, 175–78 (1989)…………..……………..22
Federal Rule of Evidence 403…………………………………………………………..23, 26
Federal Rule of Evidence 404(b)……………………………………………1, 13, 15, 20-22
Federal Rule of Criminal Procedure 8………………………………………….1, 12, 16-19
Federal Rule of Criminal Procedure 14……………………………………1, 12, 16, 18-20
APPENDICES
6th Circuit Court of Appeals Opinion…………………………………………..Appendix A
District Court Judgment………………………………………………………...Appendix B

iv

I. OPINIONS BELOW
The non-reported opinion of the Court of Appeals for the Sixth Circuit and the
judgment of conviction in the United States District Court for the Middle District of
Tennessee are attached to this petition as the Appendix.
II. JURISDICTION
The judgment of the Court of Appeals for the Sixth Circuit was entered on May
1, 2020. The jurisdiction of this Court is invoked under 28 U.S.C. 1254(1), the
petitioner having asserted below and asserting in this petition the deprivation of
rights secured by the United States Constitution.
III.

STATUTORY PROVISIONS INVOLVED

This matter involves violations of the United States Code, specifically, 18 U.S. §
924(c), 21 U.S. § 841, and 21 U.S. § 856. It also involves evidentiary matters related
to F.R.E. 404(b) and F.R.C.P. 8 and 14.
IV.

STATEMENT OF THE CASE
A. Procedural Background

The matter was briefed for the Sixth Circuit Court of Appeals and, after
considering the matter on the briefs submitted, the Court issued an Opinion dated
May 1st, 2020, denying all relief.

Mr. Serrano-Ramirez now makes this timely

application.
B.

Statement of Facts

SPECIAL AGENT REGINALD JOHNSON

1

At trial, the Government Special Agent Reginald Johnson of the Bureau of
Alcohol, Tobacco, Firearms and Explosives (ATF) testified that his agency was
involved in investigating Mara Salvatrucha, a gang commonly known as MS-13. (R.
185, Trial Transcript, Vol. II, PageID#1024-1025) As part of various investigations
related to MS-13, he came in contact with Mr. Xavier Alvarado who had information
about Mr. Gerson Serrano-Ramirez that led Metropolitan-Nashville Police
Department (MPD) to seek a search warrant of Mr. Serrano-Ramirez’s residence at
88 Palm Tree Court in Nashville, Tennessee, located in the Middle District of
Tennessee. (R. 185, T.T., Vol. II, PageID#1029-1031) At about 9 A.M. on August 8th,
2017, ATF along with members of the MPD executed a search warrant at 88 Palm
Tree Court. (R. 185, T.T., Vol. II, PageID#1033) Agent Johnson participated in the
search and seized a video surveillance system inside the residence which was
connected to several cameras inside the residence.

(R. 185, T.T., Vol. II,

PageID#1037-1038; Ex. #4) He also recovered a cellular telephone in the residence.
(R. 185, T.T., Vol. II, PageID#1039-1040; Ex. #5)
Agent Johnson requested and obtained a search warrant to review anything
stored on the devices. (R. 185, T.T., Vol. II, PageID#1041-1042) Based on extractions
from the system, Agent Johnson reviewed videos recorded over the course of several
weeks. (R. 185, T.T., Vol. II, PageID#1045-1046) Agent Johnson, reviewing specific
video clips, described seeing Mr. Xavier Alvarado and Mr. Serrano-Ramirez who was
holding what appeared to be a rifle. (R. 185, T.T., Vol. II, PageID#1046-1047; Ex.#42)
Agent Johnson further described events wherein a third person entered the residence,

2

Mr. Alvarado was tied up and then choked by the strap of the weapon Mr. SerranoRamirez was holding. (R. 185, T.T., Vol. II, PageID#1048-1049; Ex.#43) Agent
Johnson described additional scenes wherein Mr. Serrano-Ramirez held Mr.
Alvarado’s fingers in a pair of pliers. (R. 185, T.T., Vol. II, PageID#1049; Ex.#45)
Agent Johnson described scenes from a different video determined to be from August
8th, 2017, where MPD raided the residence and arrested Mr. Serrano-Ramirez. (R.
185, T.T., Vol. II, PageID#1058; Ex.#49) He also described a video taken from one of
the cell phones recovered wherein Mr. Serrano-Ramirez appears to be holding a rifle
that was later recovered during the search. (R. 185, T.T., Vol. II, PageID#1059-1060;
Ex.#39)
Agent Johnson agreed that he did not know Mr. Alvarado prior to Mr. Alvarado
making a police report on July 25th, 2017. (R. 185, T.T., Vol. II, PageID#1062) He
also agreed that the weapon recovered from 88 Palm Tree Court was not the same
weapon used during the incident with Mr. Alvarado.

(R. 185, T.T., Vol. II,

PageID#1062:1-7) Agent Johnson agreed that, after Mr. Serrano-Ramirez’s arrest,
there had been a second search of the residence conducted and, during both of the
two searches, law enforcement was only able to recover 2.5 grams of marijuana and
.27 grams of cocaine which the Agent said may or may not have been a resale amount.
(R. 185, T.T., Vol. II, PageID#1064-1066)

Agent Johnson had viewed all

approximately thirty days worth of footage of the recorded videos and he believed
there were additional incidents of Mr. Serrano-Ramirez selling and “manipulating”
narcotics contained on those videos, but the jury had not seen any videos other than

3

those from July 25th and August 7th, 2017, related to what he believed to be drug
activities. (R. 185, T.T., Vol. II, PageID#1066-1068) He agreed that, prior to the
incident with Mr. Alvarado, there was an hours long period of time when he was
drinking alcohol and doing what appeared to be cocaine with Mr. Serrano-Ramirez.
(R. 185, T.T., Vol. II, PageID#1069-1070) Agent Johnson agreed that he could not say
if the substance Mr. Serrano-Ramirez appeared to be packaging in the video from
August 7th, 2017, was narcotics, or some other substance. (R. 185, T.T., Vol. II,
PageID#1070)
SPECIAL AGENT STANLEY JONES
Special Agent Jones, having been designated an expert in the drug trade,
testified that he had worked for the United States Drug Enforcement Agency (DEA)
for approximately twenty years, with law enforcement experience prior to that, and
he had had extensive training and experience in the area of illegal narcotics. (R. 185,
T.T., Vol. II, PageID#1119-1127)
Agent Jones reviewed Government’s Exhibit 42 from July 25 th, 2017, and
stated the two individuals on the video were nasally ingesting what he thought was
cocaine. (R. 185, T.T., Vol. II, PageID#1134-1138) The Agent then testified about a
portion of the same video where a third individual entered the room and made what
he believed to be a “cash transaction” with Mr. Serrano-Ramirez related to exchange
of items in the room. (R. 185, T.T., Vol. II, PageID#1138-1140)
Agent Jones was then asked to review different recorded video clips,
Government’s Exhibits 46-48, and on those videos he described Mr. Serrano-Ramirez

4

using what he believed to be a digital scale. (R. 185, T.T., Vol. II, PageID#1140-1141)
He then described Mr. Serrano-Ramirez taking a an item wrapped in black cloth and
striking it with an object which he claimed was consistent with breaking up a
kilogram of cocaine. (R. 185, T.T., Vol. II, PageID#1141) Agent Jones then described
Mr. Serrano-Ramirez taking the items from the black cloth and putting portions of it
into smaller plastic bags after weighing it on the digital scales, then wrapping the
items back up in electrical tape, all of which he described as consistent with drug
packaging. (R. 185, T.T., Vol. II, PageID#1141-1147)
Agent Jones acknowledged that he was unable to tell if the substance in the
videos was cocaine, heroin, or methamphetamine, and that it was also consistent with
the manner in which methamphetamine is packaged, but he believed it to be cocaine.
(R. 185, T.T., Vol. II, PageID#1145) He stated that there were numerous items such
as weapons, plastic bags, digital scales, and other things that were commonly found
in the residences of people in the drug trade. (R. 185, T.T., Vol. II, PageID#11461147)
On cross-examination, Agent Jones was showed Government’s Exhibit 29, a
photograph of the .25 grams of cocaine located in the residence and he believed, by
viewing the picture, that it contained single gram amount of cocaine. (R. 185, T.T.,
Vol. II, PageID#1148-1149) He stated that he was unfamiliar with people weighing
very small amounts of cocaine of 3.5 grams or less to insure the exact quantity but a
digital scale would help in this if one wanted to be sure of the weight. (R. 185, T.T.,
Vol. II, PageID#1150-1152)

Agent Jones described having used wiretapping,

5

confidential sources, and surveillance as methods of investigating drugs crimes and
track the comings and goings at a suspected residence.

(R. 185, T.T., Vol. II,

PageID#1153-1154) Agent Jones agreed that a person selling counterfeit controlled
substances would want them to look “as close as you can get” to a true controlled
substance. (R. 185, T.T., Vol. II, PageID#1155)
XAVIER ALVARADO
Mr. Alvarado testified, through a sworn translator, he had illegally entered the
United States from Honduras about six years prior, but had not been promised any
assistance from the Government relating to his immigration status in exchange for
his testimony. (R. 185, T.T., Vol. II, PageID#1179-1180) Through growing up in
Honduras and his work at the bar, he was familiar with and had contact with
members of MS-13. (R. 185, T.T., Vol. II, PageID#1180-1181) He was friends with
Mr. Serrano-Ramirez, a frequent patron of the bar and a member of MS-13, who
informed him that MS-13 controlled things in the bar and the street. (R. 185, T.T.,
Vol. II, PageID#1181-1183) Mr. Alvarado both purchased and was given cocaine by
Mr. Serrano-Ramirez in the bar on a weekly basis and he witnessed other MS-13
members selling drugs in the bar. (R. 185, T.T., Vol. II, PageID#1183-1185)
In the summer of 2017, MS-13 members began harassing patrons at the bar,
so Mr. Alvarado, due to his relationship with Mr. Serrano-Ramirez, offered to talk to
him. (R. 185, T.T., Vol. II, PageID#1185-1188) They agreed to talk at Mr. SerranoRamirez’s residence and they arrived approximately 12 A.M. on July 25th, 2017,
where they proceeded to drink beer and use cocaine which Mr. Serrano-Ramirez

6

supplied. (R. 185, T.T., Vol. II, PageID#1189-1190) When discussing problems at the
bar, Mr. Serrano-Ramirez stated that the gang would give the orders and “do
whatever they want”. (R. 185, T.T., Vol. II, PageID#1192) He reviewed Government’s
Exhibit 42 and confirmed he was present at 88 Palm Tree Court using cocaine on July
25th, 2017, when Mr. Serrano-Ramirez claimed to hear noises from underneath the
trailer. (R. 185, T.T., Vol. II, PageID#1192-1193) Mr. Serrano-Ramirez produced an
item that appeared to be a rifle. (R. 185, T.T., Vol. II, PageID#1195-1196)

He

reviewed further video wherein he used more drugs and Mr. Serrano-Ramirez
continued to state he heard someone under the house.

(R. 185, T.T., Vol. II,

PageID#1196-1198) At some point, Mr. Serrano-Ramirez told Mr. Alvarado that he
would shoot him with the rifle which he says was loaded. (R. 185, T.T., Vol. II,
PageID#1199-1200)

On the video, Mr. Alvarado shows him his cell phone to

demonstrate he had not talked to anyone and gets onto his knees asking him not to
shoot him. (R. 185, T.T., Vol. II, PageID#1200-1201)
Later, Mr. Serrano-Ramirez jumped up and down on his couch asking who is
under the residence and then a third party arrived that assisted in tying Mr.
Alvarado’s hands, but he could not understand this conversation because it was in
English. (R. 185, T.T., Vol. II, PageID#1201-1202) Mr. Serrano-Ramirez proceeded
to choke Mr. Alvarado with the strap on the rifle and demanded to know who was
underneath the house. (R. 185, T.T., Vol. II, PageID#1203-1204) Later, Mr. SerranoRamirez placed a plastic bag over his head and suffocated him temporarily while
accusing him of working with the police to investigate drugs. (R. 185, T.T., Vol. II,

7

PageID#1205-1206)

At some point, Mr. Serrano-Ramirez held a knife and Mr.

Alvarado was told to remove clothing so he could check to see if he was wearing a
wire. (R. 185, T.T., Vol. II, PageID#1207-1209) Mr. Serrano-Ramirez had him call
his mother so he could say goodbye to her, he sprayed bleach in his face and used a
pair of pliers to squeeze his finger. (R. 185, T.T., Vol. II, PageID#1210-1211) Mr.
Serrano-Ramirez later told Mr. Alvarado he could leave the residence but he would
kill his family if he spoke to the police about the incident. (R. 185, T.T., Vol. II,
PageID#1212-1213)
Mr. Alvarado agreed he had not been promised any assistance related to
immigration status for his testimony, he had not been removed from the country, he
did not know of any proceedings that had begun relating to his immigration status
and he was familiar with, and hoped to use, a Government program that permitted
victims to remain in the United States. (R. 186, T.T., Vol. III, PageID#1230-1232)
He had known Mr. Serrano-Ramirez for several years and visited him socially on
multiple occasions, even staying at his house. (R. 186, T.T., Vol. III, PageID#12321233) He agreed that before they arrived at 88 Palm Tree Court and after they got
there, both he and Mr. Serrano-Ramirez consumed quantities of beer and cocaine for
a lengthy period of time. (R. 186, T.T., Vol. III, PageID#1233-1236) He thought,
nonetheless, he was sober and he did not think Mr. Serrano-Ramirez was intoxicated
either. (R. 186, T.T., Vol. III, PageID#1236-1237) Mr. Alvarado reiterated that for
some 30 to 45 minutes, Mr. Serrano-Ramirez walked around the residence claiming
to hear noises, thinking that someone is underneath the house, or outside the

8

windows, and continually asked him if he heard it.

(R. 186, T.T., Vol. III,

PageID#1238-1239)
Mr. Alvarado stated that, when he discussed the issues at his bar, Mr. SerranoRamirez was calm in demeanor and the attack did not start until hours later. (R.
186, T.T., Vol. III, PageID#1239) The reason that the attack began was due to Mr.
Serrano-Ramirez’s increasing paranoia that someone was underneath his residence
after hours of cocaine use and alcohol consumption.

(R. 186, T.T., Vol. III,

PageID#1239-1240) Prior to this incident, Mr. Alvarado had no intention of reporting
any of the illegal activities at the bar to law enforcement, but he cooperated with law
enforcement extensively afterwards. (R. 186, T.T., Vol. III, PageID#1240-1244)
On redirect examination, Mr. Alvarado stated he hoped to remain in the
United States because he was afraid of gangs and Mr. Serrano-Ramirez accused him
of bringing someone to his house repeatedly. (R. 186, T.T., Vol. III, PageID#12451246) On re-cross, Mr. Alvarado agreed that Mr. Serrano-Ramirez produced the rifle
in response to perceived noises underneath the house.

(R. 186, T.T., Vol. III,

PageID#1252)
DOUGLAS MAYFIELD
Mr. Mayfield testified that he was an employee of the trailer park which
contained 88 Palm Tree Court and, on July 25th, 2017, he had occasion to come into
contact with Mr. Alvarado who appeared to have various injuries and no shirt on,
events that were recorded on security cameras and introduced as exhibits by the
Government. (R. 186, T.T., Vol. III, PageID#1253-1259; Exhibit#72)

9

On cross-examination, Mr. Mayfield stated he had worked at the trailer park
for over two years, he was familiar with the entire property and he did not notice
anything unusual or improper about the residence of 88 Palm Tree Court during the
summer of 2017. (R. 186, T.T., Vol. III, PageID#1260-1261) He was aware of another
unit that had had drug activity in the past and there were many people coming and
going from that unit. (R. 186, T.T., Vol. III, PageID#1261-1262)
LAURA HERNANDEZ
Ms. Hernandez worked in the management office of the trailer court on July
25th, 2017, she is fluent in Spanish and she observed Mr. Alvarado on the day he came
to the office with multiple injuries and looking frightened. (R. 186, T.T., Vol. III,
PageID#1263-1265)

She insisted he call the police to make a report after Mr.

Alvarado explained to her what had happened to him.

(R. 186, T.T., Vol. III,

PageID#1272-1274)
Ms. Hernandez stated one of her duties at the trailer park is security, she had
been there for at least two years and, during the summer of 2017, she did not notice
anything unusual or suspicious about 88 Palm Tree Court which she would have
investigated and/or reported to authorities. (R. 186, T.T., Vol. III, PageID#12741275) If she had noticed a lot of people coming and going from a unit, a lot of people
staying for short periods of time, more people residing there than were on the lease,
or any indicia of drug activities, she would have noticed but did not about 88 Palm
Tree Court. (R. 186, T.T., Vol. III, PageID#1276)
DETECTIVE ANDREW CHOUANARD

10

Detective Chouanard worked for the MPD and, in the summer of 2017, was
conducting investigations into MS-13 in the Nashville area. (R. 186, T.T., Vol. III,
PageID#1284-1285) He specifically was familiar with a member of the gang whose
nickname was Frijol, a name previously associated with Mr. Serrano-Ramirez. (R.
186, T.T., Vol. III, PageID#1285-1286) Detective Chouanard spoke with Mr. Alvarado
along with other law enforcement on August 3rd, 2017, and, based on that interview,
he obtained a search warrant for 88 Palm Tree Court and participated in the search
of that residence on August 8th, 2017. (R. 186, T.T., Vol. III, PageID#1293-1295)
On cross-examination, Detective Chouanard stated he was investigating a
possible kidnapping, he had reviewed portions of the recorded video from 88 Palm
Tree Court, but not all of it, and they recovered 2.23 grams of marijuana and 2.5
grams of cocaine during their search.1 (R. 186, T.T., Vol. III, PageID#1295-1299) He
also participated in a second search several days after Mr. Serrano-Ramirez’s arrest
that revealed nothing of evidentiary value. (R. 186, T.T., Vol. III, PageID#1299)
During the August 8th search, the MPD located several thousand dollars in cash in
the residence but it was not seized or deemed to be proceeds from drug activities. (R.
186, T.T., Vol. III, PageID#1299-1300)

He agreed that there was no prior

investigation into drug activities at that residence.

(R. 186, T.T., Vol. III,

PageID#1300-1301) The Detective also agreed that, in a drug an investigation, the
police would surveil a location and a large volume of people coming and going was
often indicative of drug activities. (R. 186, T.T., Vol. III, PageID#1301-1302) There

1

Prior sections of the transcript discuss .25 grams of cocaine being recovered, but 2.5 would appear to be the
accurate amount based on the totality of the record and evidence presented

11

was no mention of drug activities in the search warrant that the Detective obtained.
(R. 186, T.T., Vol. III, PageID#1303)
SPECIAL AGENT BRADLEY GANT
Special Agent Gant worked with the Department of Homeland Security (HSI)
and he participated in the search of 88 Palm Tree Court during which he noted the
presence of Mr. Alvarado’s shoe, the small amount of marijuana, four digital scales,
and boxes of ammunition for various types of firearms which were then introduced
into evidence. (R. 186, T.T., Vol. III, PageID#1341-1351) Agent Gant testified that
he had investigated Mr. Serrano-Ramirez’s immigration status and Mr. SerranoRamirez had no lawful status in the United States.

(R. 186, T.T., Vol. III,

PageID#1351-1356)
On cross-examination, he agreed that all the weapons and ammunition were
located in the back bedroom and none were located in the central living room area.
(R. 186, T.T., Vol. III, PageID#1357)
C.

Sixth Circuit Opinion

The Opinion issued by the Sixth Circuit in this matter upheld the rulings of
the District court. In its Opinion, the Sixth Circuit, in reference to Mr. SerranoRamirez’s argument relating his motion to sever the offenses in the indictment
because the offenses were improperly joined under F.R.C.P. 8 and, even if they were
determined to be properly joined, the prejudice engendered by a joint trial should
have warranted severance under F.R.C.P. 14.

12

The Circuit Court also erred in affirming the District Court’s erroneous
analysis of other acts evidence that was overly prejudicial for its probative value given
the drug related nature of the prior alleged acts and the charges in the instant
indictment and should have been excluded pursuant to F.R.E. 404(b). Further, the
Government had no other legitimate alternate purpose other than propensity in
seeking the introduction of this evidence.
The Circuit Court also erred in affirming the District Court’s decision in
permitting the Government to elicit evidence related to his purported gang affiliation
as a way of explaining his conduct towards the victim in this offense.
The Circuit Court also erred in determining the Government produced
sufficient evidence that the “firearm” that served as the factual basis in count five of
the indictment was a “firearm” within the statutory definition because the item was
never recovered.
The Circuit Court also erred in determining there was sufficient proof as to
count eight of the indictment that he was maintaining his residence for drug
activities. There is scant evidence of drug distribution, if any, in the record and, even
in the light most favorable to the Government, that evidence is insufficient to
establish that an important or significant purpose of maintaining the residence was
for drug distribution.
The Circuit Court also erred in determining the Government adduced
sufficient proof that he was in possession of and/or distributed cocaine in counts four
and six. The evidence adduced could not establish that there was any distribution in
13

count four and the evidence was insufficient to demonstrate he possess cocaine in
count six instead of another substance.

14

STANDARDS OF REVIEW
This Court will apply the abuse of discretion standard in its review of severance
and gang references. “A district court abuses its discretion when it relies on clearly
erroneous findings of fact, or when it improperly applies the law or uses an erroneous
legal standard.” Ross v. Duggan, 402 F.3d 575, 581 (6th Cir.2004)
Multiple standards of review are used in analyzing a F.R.E. 404(b). Reviewing a
404(b) challenge, the court should first review “for clear error the factual
determination that other acts occurred”, then secondly “de novo the legal
determination that the acts were admissible for a permissible 404(b) purpose” and
lastly “for abuse of discretion the determination that the probative value of the
evidence is not substantially outweighed by unfair prejudicial impact”. United States

v. Clay, 667 F.3d 689, 693 (6th Cir., 2012).
When reviewing the sufficiency of the evidence, this Court will uphold the verdict
of the jury unless it would be impossible for any rational trier of fact to find the
defendant guilty beyond a reasonable doubt based on the evidence adduced. United

States v. Morrow, 977 F.2d 222, 230 (6th Cir. 1992).

15

ARGUMENT
I.

THE DISTRICT COURT ERRED WHEN IT DENIED MR. SERRANORAMIREZ’S MOTION TO SEVER OFFENSES

The District Court denied Mr. Serrano-Ramirez’s motion to sever the offenses
in the indictment. (R. 75, Motion to Sever Offenses) In part, F.R.C.P. 8(a) states
“[t]he indictment or information may charge a defendant in separate counts with 2 or
more offenses if the offenses charge …. are of the same or similar character, or are
based on the same act or transaction, or are connected with or constitute parts of a
common scheme or plan”. F.R.C.P. 14(a) provides, in part, that “[i]f the joinder of
offenses or defendants in an indictment … for trial appears to prejudice a defendant
…. the court may order separate trials of counts” based on an assessment of the issues
presented to the trial court. “[F]ailure to meet the requirements of [F.R.C.P. 8]
constitutes misjoinder as a matter of law" and, the Government’s indictment does not
comply, the District Court has “no discretion on the question of severance.” United

States v. Hatcher, 680 F.2d 438, 440 (6th Cir.1982) First, the Court must determine
if Rule 8 has been breached and joinder was impermissible in which case severance
was mandated. Even if there has been no violation of F.R.C.P. 8, the Court must
determine if there has been a violation of F.R.C.P. 14 where joinder was permissible
but severance was warranted due to unfair prejudice to Mr. Serrano-Ramirez.
The defense must show a “compelling, specific, and actual prejudice from [the]
court’s refusal to grant the motion to sever” in order to prevail. United States v.

Driver, 535 F.3d 424, 427 (6th Cir. 2008); quoting United States v. Saadey, 393 F.3d
669, 678 (6th Cir. 2005). Severance should be granted “only if there is a serious risk
16

that a joint trial would compromise a specific trial right of one of the defendants, or
prevent the jury from making a reliable judgment about guilt or innocence.” Zafiro v.

United States, 506 U.S. 534, 539, 113 S.Ct. 933, 122 L.Ed.2d 317 (1993). Joint trials
promote judicial economy and society’s interest in the efficient administration of
justice when “charges will be proved by the same evidence and result from the same
acts.” United States v. Caver, 470 F.3d 220, 238 (6th Cir. 2006)(quoting United States

v. Beverly, 369 F.3d 516, 534 (6th Cir. 2004). While “[t]he risk of prejudice will vary
with the facts in each case”, when considering sufficient prejudice “[n]o matter the
adjective employed, …. whatever prejudice a defendant endured …. must be
something more than the run-of-the-mill, plain vanilla prejudice that is incident to,
or at least likely to arise in, any criminal trial”. Zafiro 506 U.S. at 539; United States

v. Martinez, No.06-4407*6 (6th Cir. 2011).
Mr. Serrano-Ramirez motioned the District Court to sever the various counts
of the indictment into three sets of offenses to be tried in separately. (R. 79, Motion
to Sever Offenses) The Government, for joinder, relied on the provision of F.R.C.P. 8
that the various counts of the indictment should be joined because they “are of the
same or similar character”. (R. 80, Response to Motion to Sever, Page ID#259) No
other permissible reason exists under F.R.C.P. 8 and the facts of the case. However,
the Government has no legitimate basis for linking the incidents from July 25 th,
involving Mr. Alvarado to the allegations arising after the search of his residence on
August 7th and 8th. Other than taking place in the same location, the two sets of
charges have nothing to do with one another and are not similar in nature. To link

17

these charges, the Government added count eight of the indictment for the sole
purpose of circumventing F.R.C.P. 8 as well as F.R.C.P. 14. By alleging Mr. SerranoRamirez used his residence as a drug premises, the Government was able to argue
that proof of any drug activities of Mr. Serrano-Ramirez, both at the residence and
elsewhere, was necessary to enable them to meet their burden in count eight of the
indictment. The mere fact that the Government charged a violation of 21 U.S § 856(a)
does not permit them to violate F.R.C.P. 8 and impermissibly join the offenses in the
indictment. More succinctly, alleging that 88 Palm Tree Court is a drug premises
does not mean that any criminal activity on that premises becomes “of the same or
similar character” simply because drugs are involved in either a direct or tangential
way.
The proof the Government asserts as evidence of Mr. Serrano-Ramirez’s guilt
is largely in the form the internal surveillance recordings recovered from his
residence. The incidents recorded on July 25th and on August 7th do not support the
contention that Mr. Serrano-Ramirez was engaged in selling or possessing narcotics
in general, nor does it specifically support the contention that he was maintaining
the residence for the purposes of drug sales. The Government must establish that a
“significant or important” purpose of the residence was for distributing drugs. United

States v. Russell, 595 S.W.3d 633, 642-643 (6th Cir.2010) The proof does not support
that contention. At most, there are two incidents of either sale or possession of
narcotics within two weeks of one another. However, the Government has used these

18

two incidents and their charging decisions to convince the district court that
otherwise unrelated and dissimilar offenses should be tried in the same indictment.
The proof demonstrates that the Government added count eight for the
purpose of impermissibly joining the various counts of the indictment under F.R.C.P.
8, despite the dearth of evidence as to count eight in light of the requirements of 18
U.S. § 856(a). This circumvented the purpose of Rule 8 by adding a charge that could
not be supported by the proof in the hopes that its addition will allow the Government
to then hold a joint trial on all charges regardless of the otherwise impermissibility
of the joinder of those charges. The Government’s assertion that they are similar in
nature is inaccurate as one involved tampering with a witness related to potential
disclosure of drug activities at a location unrelated to 88 Palm Tree Court and the
other counts involve alleged drug possession at 88 Palm Tree Court. This does not
meet the requirements of F.R.C.P. 8 that the offenses be of “the same or similar
character” nor does the allegation of maintaining a drug premises tie these dissimilar
offenses together and permit joinder. The district court erred in denying the defense
request to sever under F.R.C.P. 8. The Government has created misjoinder which
requires severance pursuant to Hatcher and this Court should reverse the district
court’s decision.
Notwithstanding the above argument, the various sets of offenses should be
severed nonetheless pursuit to F.R.C.P. 14. The admission of the evidence against
Mr. Serrano-Ramirez on the offenses from August 7th would be highly prejudicial to
him regarding his defense to the charges from July 25th and vice versa. The inclusion

19

of count eight, which spans the entire timeframe between July 25 th or August 7th,
creates unfair prejudice to Mr. Serrano-Ramirez for all of the other offenses in the
indictment. The plain language of F.R.C.P. 14 states that if the district court finds
that joinder “appears to prejudice a defendant” then the district court should take
remedial measures, including severance. Evidence and allegations of additional drug
and weapons possession and/or sale would be highly prejudicial to him as it relates
to each set of charges in this indictment and no remedy is sufficient to alleviate the
prejudice other than severance. Admission of multiple alleged drug transactions
and/or possessions distracts the “jury from making a reliable judgment about guilt or
innocence” as to each incident being tried as Zafiro warns against.

The risk of

confusion for the jury when assessing proof versus propensity provides the Court with
the “compelling, specific, and actual prejudice” for severance of offenses as required
by the Driver court. Evidence that he possessed a weapon and drugs on different
dates would make it difficult for the jury to avoid the tendency towards treating this
as propensity evidence even if the Court gave curative instructions.
While maintaining that the District Court erred when it did not sever these
offenses as a matter of law pursuant to F.R.C.P 8, he further asserts it erred in failing
to sever them pursuant to F.R.C.P 14.
II.

THE DISTRICT COURT ERRED WHEN IT IMPROPERLY
PERMITTED THE GOVERNMENT TO SOLICT EVIDENCE IN
CONTRAVENTION OF FEDERAL RULE OF EVIDENCE 404(b)

Federal Rule of Evidence 404(b) bars prior acts evidence introduced “in order
to show that on a particular occasion the person acted in accordance with the
20

character”, however, the Rule permits introduction for several alternate purposes.
When reviewing Rule 404(b) evidence, the district court uses a three-step process to
decide if:
(1) the “other act” actually occurred,
(2) the evidence is offered for a permissible purpose, and
(3) its probative value is not substantially outweighed by unfair prejudice.

United States v. De Oleo, 697 F.3d 338, 343 (6th Cir.2012); See Clay 667 F.3d at 696.
“In the Rule 404(b) context, similar act evidence is relevant only if the jury can
reasonably conclude that the act occurred and that the defendant was the actor.”

Huddleston v. United States, 485 U.S. 681, 689, 108 S.Ct. 1496, 99 L.Ed.2d 771
(1988).
The District Court must determine whether the evidence is offered for a
permissible purpose other than character or propensity of the defendant. The Court
should recall that the Government may only introduce evidence for one of the
alternate purposes if a defendant “has placed, or conceivably will place” that evidence
“in issue”. United States v. Bell, 516 F.3d 432, 442 (6th Cir. 2008). The District Court
must engage in a three-part inquiry regarding the proffered evidence. “Evidence of
other acts is probative of a material issue other than character if (1) the evidence is
offered for an admissible purpose, (2) the purpose for which the evidence is offered is
material or ‘in issue’, and (3) the evidence is probative with regard to the purpose for
which it is offered.” United States v. Rayborn, 495 F. 3d 328, 342 (6th
Cir.2007)(quoting United States v. Jenkins, 345 F.3d 928, 937 (6th Cir.2003)).
21

“When prior acts evidence is introduced, regardless of the stated purpose, the
likelihood is very great that the jurors will use the evidence precisely for the purpose
it may not be considered: to suggest that the defendant is a bad person, a convicted
criminal, and that if he ‘did it before he probably did it again.’” United States v.

Johnson, 27 F.3d 1186, 1193 (6th Cir.1994), cert. denied, 513 U.S. 1115, 115 S.Ct.
910, (1995). The district court may attempt to insulate the effects of this evidence
through a limiting instruction, but this is not “a sure-fire panacea for the prejudice
resulting from needless admission of such evidence.” United States v. Haywood, 280
F.3d 715, 724 (6th Cir.2002). The Court must be cognizant of the difficulty juries
have with differentiating an alternate purpose for prior acts and the natural
inclination to deem it evidence of the defendant’s propensity to commit similar or
other criminal offenses. See United States v. Hardy, 643 F.3d 143, 161 (6th Cir.2011)
(Cole, J., dissenting) (stating that “empirical studies confirm that ‘juries treat prior
bad acts evidence as highly probative of the charged crime’ ”) (quoting United States

v. Amaya–Manzanares, 377 F.3d 39, 49 (1st Cir.2004)); see also Abraham P. Ordover,
Balancing the Presumptions of Guilt and Innocence: Rules 404(b), 608(b) and 609(a),
38 Emory L.J. 135, 175–78 (1989).
The “term ‘unfair prejudice’ as to a criminal defendant, speaks to the capacity
of some concededly relevant evidence to lure the factfinder into declaring guilt on a
ground different from proof specific to the offense charged.” United States v. Old

Chief, 519 U.S. 172, 180, 117 S.Ct. 644 (1997). “[G]eneralizing a defendant's earlier
bad act into bad character and taking that as raising the odds that he did the latter

22

bad act now charged (or, worse, as calling for preventive conviction even if he should
happen to be innocent momentarily)” is a risk that always remains at the core of the
equation to determine admissibility. Id. at 180-81, 117 S.Ct. 644. The District Court
should also consider whether there are alternate sources of evidence that may serve
to prove the same facts that the prior acts evidence attempts to support or
demonstrate. See Haywood 280 F.3d at 723 (6th Cir.2002); see also United States v.

Merriweather, 78 F.3d 1070, 1077 (6th Cir.1996) (“One factor in balancing unfair
prejudice against probative value under Rule 403 is the availability of other means
of proof.”).
The District Court denied Mr. Serrano-Ramirez’s pretrial motion requesting
that the Government be prohibited from introducing other alleged drug sales he had
engaged in at locations other than his residence and at times that preceded the dates
of the indictment. (R. 94, Motion in Limine Other Acts Evidence) Based on this
ruling, Mr. Alvarado was permitted to testify about alleged drugs sales and drug
possession that he witnessed Mr. Serrano-Ramirez engage in. Pursuant to De Oleo,
the district court erred in its analysis of required the three-part test. Mr. Alvarado’s
testimony was that Mr. Serrano-Ramirez had given him cocaine, used cocaine with
him and sold him cocaine on different occasions over an undetermined period of time.
(R. 185, T.T., Vol. II, PageID#1183-1185) This vagueness does not serve to make clear
that the prior acts were, in fact, distribution of a controlled substance, so the
Government has not established even the first prong of the test satisfactorily.

23

The Government asserted that it needed to present this evidence to prove count
eight of the indictment, despite the fact that the other acts did not take place at 88
Palm Tree Court, and because they were attempting to prove the intent of Mr.
Serrano-Ramirez in his possession of the alleged narcotics in counts four and six. The
district court, in denying the motion, relied, in part, on the holding of United States

v. Johnson to permit evidence of prior drug activities in Mr. Serrano-Ramirez’s trial
to help establish his intent in these offenses. Johnson 27 F.3d. at 1191-1193. (R. 127,
Order Denying Motion to Exclude Other Acts Evidence, Page ID#506-507) This is
erroneous certainly as to counts four and eight of the indictment which charge him,
in part, with the completed criminal acts of distribution and maintaining a premises
to distribute controlled substances.

The evidence of Agent Jones supports the

contention that the Government intended to prove the completed act of distributing
and maintaining a premises for distributing, not merely the intent to distribute. The
district court stated that it was permitting such evidence under Johnson because this
was a specific intent crime and not merely the prohibited act and Johnson takes pains
to state that such prior acts are inadmissible if the crime charged is merely the
prohibited act as it is under one theory in count four and under count eight of the
indictment. Id. at 1192; citing United States v. Ring, 513 F.2d 1001 (6th Cir.1975)(“In

Ring, this circuit squarely rejected the rule that would allow the government to
introduce other acts evidence simply to prove mens rea”)
More critically, the district court’s ruling overlooks the admonition in

Merriweather. The Government’s theory was many of the items recovered in Mr.
24

Serrano-Ramirez’s residence were indicia of drug sales, there was clear evidence that
drugs had been used in the home and were located in the residence when searched
and they introduced Agent Jones as an expert in an effort to paint Mr. SerranoRamirez’s activities as consistent with possession with intent for resale. They had
multiple sources of evidence other than the alleged prior acts of Mr. Serrano-Ramirez
they used to attempt to meet their burden, but using these alleged prior sales was
not necessary and highly prejudicial.
The argument relating to other sources of proof dovetails with the last prong
in De Oleo. The use of alleged prior drug sales at another location purportedly to
prove intent was far more prejudicial to Mr. Serrano-Ramirez than it was probative
of his intent for the Government. As the Johnson and Hardy decisions make plain, a
jury is vastly more likely to find Mr. Serrano-Ramirez guilty of the crime charged in
this indictment when it heard, for whatever purpose, of prior drug dealing. The
District Court abused its discretion in finding the evidence was more probative than
prejudicial. Mr. Serrano-Ramirez was overly prejudiced by this evidence given the
relatively limited value it brought to the Government’s case and he is entitled to a
new trial.
III.

THE DISTRICT COURT ERRED WHEN IT FAILED TO PROHIBIT
THE GOVERNMENT FROM REFERENCING MR. SERRANORAMIREZ’S ALLEGED GANG AFFLIATION

Evidence of a defendant’s alleged affiliation in a criminal gang may be relevant
when such evidence is used to demonstrate the relationship between certain people
and that relationship between those parties is an issue in the case. See United States
25

v. Williams, 158 Fed.Appx. 651, 653–54 (6th Cir. 2005); United States v. Gibbs, 182
F.3d 408, 429–30 (6th Cir. 1999) (using certain evidence of gang affiliation did not
assist proving defendant’s participation in charged conspiracy and was inadmissible)
Notwithstanding that limited purpose, gang affiliation evidence “is inadmissible if
there is no connection between the gang evidence and the charged offense.” United

States v. Anderson, 333 Fed.Appx. 17, 24 (6th Cir.2009); see also United States v.
Newsom, 452 F.3d 593, 602–04 (6th Cir.2006) (holding that evidence of a gang tattoo
was not relevant when the sole charge was being a felon in possession of a firearm).
This represents, in essence, a narrow exception to F.R.E. 403 which prohibits
evidence where the unfair prejudice substantially outweighs its prohibitive value,
tacitly admitting that, otherwise, gang affiliation evidence would violate F.R.E. 403.
See Gibbs 182 F.3d at 429-430.
Mr. Serrano-Ramirez motioned the District Court to prohibit the Government
referencing his alleged gang activities and affiliation. (R. 66, Motion to Exclude Gang
References) The Government sought to introduce his alleged gang affiliation in order
to explain his actions in threatening Mr. Alvarado. This was both highly prejudicial
to Mr. Serrano-Ramirez and not necessary for the Government to prove its case. The
decision in cases such as Gibbs and Williams permits evidence of gang affiliation
when it is necessary to explain “the relationship between certain people”. In this
case, Mr. Alvarado testified that Mr. Serrano-Ramirez and his fellow gang members
were disrupting business in the bar where he worked and he was present with him
on July 25th, 2017, to discuss this disruptive behavior. This testimony could have
26

been effectively restricted to sanitize the alleged gang affiliation of Mr. SerranoRamirez while still allowing the Government to present its case as to why the threats
were made to and believed by Mr. Alvarado. If the district court permitted the
Government to solicit evidence of alleged drug dealing by Mr. Serrano-Ramirez in the
bar, which it had, and there was testimony about the harassment of the bars’ patrons,
the reason for the conversation and subsequent threats and assault was apparent
without the necessity of mentioning that he and his friends were allegedly part of
criminal gang. The information imparted to the jury by Mr. Alvarado related to MS13 membership and activities was tangential to the Government’s case, but it was
very prejudicial to Mr. Serrano-Ramirez’s ability to receive a fair trial given general
public perception of criminal gangs and its perception of MS-13 in particular. This
erroneous decision created an unfair trial and represents an abuse of its discretion as
it is far afield of the narrow instances permitted by the Gibbs and Williams decisions.
Mr. Serrano-Ramirez is entitled to a new trial on this basis.
IV.

THERE IS INSUFFICIENT EVIDENCE TO SUPPORT MR.
SERRANO-RAMIREZ’S CONVICTION IN COUNT FIVE OF THE
SUPERSEDING INDICTMENT AS THERE WAS NO PROOF THE
WEAPON WAS AN AUTHENTIC FIREARM

Failure to prove even one of the essential elements of an offense beyond a
reasonable doubt is fatal to the Government’s ability to supply sufficient evidence to
support a conviction for that offense.
18 U.S. §921(a)(3) defines the term “firearm” as:

27

(A) any weapon (including a starter gun) which will or is designed to or may
readily be converted to expel a projectile by the action of an explosive; (B) the frame
or receiver of any such weapon; (C) any firearm muffler or firearm silencer; or (D)
any destructive device. Such term does not include an antique firearm.

18 U.S. §924(c)(1)(A) provides that it is a violation for:
any person who, during and in relation to any crime of violence or drug trafficking
crime ….. uses or carries a firearm, or who, in furtherance of any such crime,
possesses a firearm
The Government must demonstrate a defendant’s use or carry a “firearm” within the
definition provided in 18 U.S. §921(a)(3).
The proof showed that Mr. Serrano-Ramirez possessed an item in several of
the video clips from July 25th, 2017, that were presented to the jury which appeared
to be a rifle. (R. 185, T.T., Vol. II, PageID#1045-1049; Ex. #42) However, Agent
Johnson’s testimony was clear that this supposed firearm was different in style than
the one recovered during a search of his residence on August 8th, 2017. (R. 185, T.T.,
Vol. II, PageID#1063:1-7) Agent Johnson had the following exchange with defense
counsel related to the item that appeared to be a rifle from the video with Mr.
Alvarado:
Defense Counsel: Now, the video -- the very short one from the cell phone that we
just saw, you stated that that weapon was the same one that was recovered from
88 Palm Tree Court?
Agent Johnson: Yes.
Defense Counsel: But I'm correct in that the weapon that was on the video with
Mr. Alvarado is not the same one; is that correct?
Agent Johnson: That's correct.

28

The item that was used in the video clips from July 25th, 2017, was never
introduced into evidence at the trial and, as such, the Government failed to present
any evidence to the jury that the item was actually a firearm within the definition of
18 U.S. §921(a)(3). The Government failed to prove an essential element of the
offense and has failed to prove beyond a reasonable doubt that Mr. Serrano-Ramirez
violated 18 U.S. §924(c)(1)(A)(ii). Without some form of proof that the item in the
video from July 25th, 2017, was an actual firearm, no reasonable jury could conclude,
merely on the appearance of the item from the video and nothing more, that it was a
“firearm” within the statutory definition. Further, neither Mr. Alvarado’s assertion
that it was a firearm, nor that Mr. Serrano-Ramirez threat to shoot him is sufficient
to establish that it was a firearm within the statutory definition. Mr. Alvarado was
not qualified as a firearms expert and no testimony demonstrated any familiarity
with firearms on his part as well as the circumstances under which he observed the
item, namely in the middle of being attacked, were poor. If this type of lay evidence
was sufficient to sustain a conviction for firearms possession by itself, the
Government would not need, and did for counts one, seven and nine in this
indictment, to use a firearms expert to demonstrate that a firearm that was actually
recovered is, in fact, a genuine and operable firearm. The evidence adduced by the
Government as to this count, which is limited to the lay assertions by Mr. Alvarado
that he thought the item was a firearm, is insufficient to support a conviction on this
count.

This Court should dismiss this count of the indictment and vacate the

judgment in Count Five.

29

V.

THERE IS INSUFFICIENT EVIDENCE TO SUPPORT MR.
SERRANO-RAMIREZ’S CONVICTION IN COUNT EIGHT OF THE
SUPERSEDING INDICTMENT AS THERE WAS INSUFFICIENT
EVIDENCE HE WAS MAINTAINING A PREMISES FOR THE
PURPOSE DISTRIBUTING CONTROLLED SUBSTANCES

In order for the Government to prove the offense in Count Eight of maintaining
a drug-involved premises under 21 U.S.C. § 856(a), they are required to present proof
that Mr. Serrano-Ramirez “knowingly open[ed], lease[ed], rent[ed], use[d], or
maintain[ed] any place, whether permanently or temporarily, for the purpose of
manufacturing, distributing, or using any controlled substance.” The Sixth Circuit
has stated, in reference to the statutory language of the term “purpose” in 21 U.S. §
856(a):
the definition of ‘purpose’ adopted by the district judge—that the government need
only prove that the defendant's drug-related purpose for maintaining a premises
be ‘significant or important’—is the proper definition of ‘purpose’ in this circuit in
the context of § 856

Russell, 595 S.W.3d at 642-643. (6th Cir.2010) The Russell court further clarified
that its ruling as it relates to the “use” of controlled substances in a residence stating:
Each court to have addressed this issue has agreed that the “’casual’ drug user
does not run afoul of [§ 856] because he does not maintain his house for the purpose
of using drugs but rather for the purpose of residence, the consumption of drugs
therein being merely incidental to that purpose.”

Russell, 595 S.W.3d at 643; quoting United States v. Lancaster, 968 F.2d 1250, 1253
(D.C.Cir., 1992)
The proof as to count eight comes primarily from the videos recovered at the
residence.

The videos have no audio, there was no police investigation of the

30

residence at the time of the alleged possession and exchange that would support the
contention that he was distributing narcotics from the residence, there are no
statements from Mr. Serrano-Ramirez or his co-defendant that would support this
assertion and very little recovered during the search of the premises would support
the assertion that the residence was being maintained for the purposes of drug sales.
Even taken in the light most favorable to the Government, the proof does not support
that a “significant” purpose of 88 Palm Tree Court was for distributing drugs as

Russell requires. While the Government can prove that controlled substances were
used at the residence, there was no proof in the record of anyone manufacturing
controlled substances on the premises. Further, the “use” of controlled substances by
Mr. Serrano-Ramirez and Mr. Alvarado, as well as the small amount of cocaine
located in the search, support the assertion that they were “casual” drug users that
this statute was not designed to punish. The Government has also failed to present
adequate proof to demonstrate, beyond a reasonable doubt, that a significant or
important purpose for Mr. Serrano-Ramirez maintaining 88 Palm Tree Court was for
the distribution of controlled substances. The only instances in all of the record,
gleaned from the thirty days of footage recorded, are the incident from July 25th, 2017,
with the alleged exchange between Mr. Serrano-Ramirez and the third-party
individual and the incident from August 7th, 2017, where Mr. Serrano-Ramirez is
allegedly packaging drugs, incidents which took place approximately two weeks
apart. The Government cannot prove beyond a reasonable doubt that a significant or
important purpose of the residence was the distribution of controlled substances on

31

this basis. Even if all the other allegations in the indictment are true, two incidents
of drug distribution or possession with intent to distribute in thirty days does not
equate to a significant or important use of the premises. Mr. Serrano-Ramirez is
entitled to relief and this Court should dismiss count eight of the indictment.
VI.

THERE IS INSUFFICIENT EVIDENCE TO SUPPORT MR.
SERRANO-RAMIREZ’S CONVICTION IN COUNTS FOUR AND SIX
AS THERE WAS INSUFFICIENT PROOF PRESENTED TO
ESTABLISH THAT MR. SERRANO-RAMIREZ WAS IN POSSESSION
OF A CONTROLLED SUBSTANCE

21 U.S. § 841(a) provides that “it shall be unlawful for any person knowingly
or intentionally to manufacture, distribute, or dispense, or possess with intent to
manufacture, distribute or dispense, a controlled substance”. In this matter, Mr.
Serrano-Ramirez was convicted of possession with intent to distribute a controlled
substance in counts four and six of the indictment. The proof was insufficient to
convince any rational trier of fact beyond a reasonable doubt that he “distributed”
cocaine in violation of the statute in count four of the indictment. Likewise, the proof
was insufficient to convince any rational trier of fact beyond a reasonable doubt that
he was in possession of cocaine with intent to distribute as to the proof in count six.
In count four, the Government relies on the testimony of Mr. Alvarado, Agent
Johnson and Agent Jones as it relates to an encounter Mr. Serrano-Ramirez had with
a third individual on July 25th, 2017, at his residence as the basis for the conviction.
Mr. Alvarado described a third party arriving at the residence during the assault and
assisting in tying him up, but did not know what he and Mr. Serrano-Ramirez
discussed because the conversation was in English.
32

(R. 185, T.T., Vol. II,

PageID#1201-1202)

Agent Johnson merely describes the scene wherein a third

individual enters the residence and assists in tying up Mr. Alvarado. This testimony
is an insufficient basis to support a conviction for this count. (R. 185, T.T., Vol. II,
PageID#1048-1049; Ex. #43) Agent Jones testified, based on his review of the video
in Exhibit 43, that he believed there was a “cash transaction” taking place between
Mr. Serrano-Ramirez and the third individual that entered the apartment. (R. 185,
T.T., Vol. II, PageID#1139-1140; Ex. #43) This is also insufficient to establish guilt
beyond a reasonable doubt. A witness with no personal knowledge of what transpired
and no tangible proof that there was an exchange or that that exchange was for
cocaine or that that exchange constituted distribution within the meaning of the
statute is an insufficient basis to support the jury’s verdict in count four.
In support of its conviction in count six of the indictment, the Government
relies on the video clips from August 7th, 2017, in Government’s Exhibits 46-48. Agent
Jones stated that the activities by Mr. Serrano-Ramirez recorded in the videos
wherein he takes an unknown substance, beats it with an object, weighs it, and places
it into separate smaller bags appeared to be most consistent with cocaine sales, but
he acknowledged that he could not say whether the substance in the video was
cocaine, methamphetamine, heroin or a counterfeit controlled substance. (R. 185,
T.T., Vol. II, PageID#1141-1147) This information was the entirety of the proof to
support this charge and is insufficient for any rational trier of fact to find Mr.
Serrano-Ramirez guilty of the charged offense.

Agent Jones admitted that the

substance in the video could have been either multiple other controlled substances

33

other than cocaine, or a non-controlled substance, no rational trier of fact could
determine that no reasonable doubt existed as to whether the substance in question
was cocaine.

He also stated the activities were consistent with packaging

methamphetamine. This Court should overturn the jury’s verdict due to the absence
of sufficient evidence and dismiss the conviction offense in count six of the indictment.

34

CONCLUSION
For the aforementioned reasons, Mr. Serrano-Ramirez prays that this
Honorable Court will grant his request for a writ of certiorari in order to review the
questions of sufficiency of the evidence presented to support the conviction offenses
and the various erroneous and prejudicial evidentiary rulings by the District Court,
affirmed by the Circuit Court, that created reversible error.

Respectfully submitted,

/s/ Manuel B. Russ
Manuel B. Russ
340 21st Avenue North
Nashville, Tennessee 37203
(615) 329-1919

CERTIFICATE OF SERVICE
I certify that the foregoing writ of certiorari and the accompanying appendix
has been served via electronic mail upon counsel for the Respondent, Mr. Ahmed
Safeeluah, Assistant United States Attorney, Office of the United States Attorney,
110 Ninth Avenue South, Suite 961-A, Nashville, TN 37203, and Mr. Noel Francisco,
Solicitor General of the United States, Room 5614, Department of Justice, 950
Pennsylvania Avenue, N.W., Washington D.C. 20530-0001, this 15th day of July,
2020.
/s/Manuel B. Russ
Manuel B. Russ

35

